<html>
<title> - THE U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FIRST ANNUAL REPORT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 THE U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FIRST ANNUAL 
                                 REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2000

                               __________

                           Serial No. 106-166

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

68-021 CC           U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Paul Berkowitz, Professional Staff Member
                  Nicolle A. Sestric, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Rabbi David Saperstein, Chair, U.S. Commission on International 
  Religious Freedom..............................................     5
Elliott Abrams, Commissioner, U.S. Commission on International 
  Religious Freedom..............................................     9
Nina Shea, Commissioner, U.S. Commission on International 
  Religious Freedom..............................................    12

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    28
Rabbi David Saperstein...........................................    30
Elliott Abrams...................................................    41
Nina Shea........................................................    49

 
 THE U.S. COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM: FIRST ANNUAL 
                                 REPORT

                              ----------                              


                        WEDNESDAY, MAY 24, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:25 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    The 105th Congress enacted the International Religious 
Freedom Act of 1998 to give priority to combating religious 
persecution worldwide among U.S. foreign policy objectives. The 
Act established the United States Commission on International 
Religious Freedom, which monitors religious freedom in other 
countries and advises the President, our Secretary of State and 
Congress how best to promote religious freedom and to combat 
religious persecution abroad.
    The Commission has held hearings on religious persecution 
in China and in Sudan, and commissioners have given 
congressional testimony on religious freedom in China, in 
Russia, in the Sudan, and in Turkmenstan. In addition, they 
have spoken out about intolerance and persecution in Egypt, 
Indonesia, Iran, and Vietnam.
    Personally, I am very troubled by the reports we are 
hearing about persecution of Christians in Egypt. We would hope 
that the next report of the Commission would look more closely 
at that problem.
    Nevertheless, we are very pleased with the Commission's 
work and its first annual report released on May 1. It pulled 
no punches and made very pragmatic recommendations.
    For example, the Commission is right on the mark by 
recommending that before granting Permanent Normal Trade 
Relations [PNTR] to China, that Congress should announce it 
will hold annual hearings on human rights and religious freedom 
in China, and extend an invitation to His Holiness, the Dalai 
Lama, to address a joint session of the Congress.
    Among the Commission's many recommendations on Russia were 
two that would significantly help focus the Administration's 
Russia policy, including that the State Department should make 
the humanitarian and human rights crisis in Chechnya a high 
priority issue in United States-Russian relations, and that the 
U.S. Government, as an urgent diplomatic priority, should press 
President Putin to reverse the edict requiring liquidation of 
nonregistered religious groups.
    With regard to the Sudan, we are very pleased that the 
Commission suggested that our Nation should launch a vigorous 
campaign led by the President to inform the world of Sudan's 
war crimes, crimes against humanity, and genocidal activities.
    We also agree with the Commission that the United States 
Should engage in a multilateral and bilateral effort to 
increase economic and other pressures on the Sudan's 
government.
    Today the Congress will be voting on whether or not to 
grant the People's Republic of China [PRC] Permanent Normal 
Trade Relations status. The significance for our Nation of the 
outcome of this one vote is enormous for our national security, 
for our economic strength, and for our moral standing around 
the world.
    As the Commission suggests, it would be an extraordinary 
mistake to empower China's military and repressive dictators 
with more trade-generated wealth and resources. To lend our 
assistance to their unrelenting repression of religion is 
unconscionable.
    This Commission sends a bold message to governments around 
the world that American citizens believe the right to worship 
God freely is one of our most cherished human values.
    I would hope that as we consider the Commission's 
suggestions, we will give them the highest priority as we 
fashion our Nation's foreign policy. I look forward to hearing 
the Commissioners' statements.
    I yield to the gentleman from Connecticut, Mr. Gejdenson, 
our Ranking Minority Member.
    Mr. Gejdenson. Mr. Chairman, I will be brief. Thank you.
    I think we all in this country recognize the centrality of 
an individual's right to his own religious views, and obviously 
we oppose an official central government view of religion, 
although that seems to come under attack, even in this Congress 
periodically, as we see arguments for the Ten Commandments 
being placed in schools. So even our own tolerance of religious 
differences, or people who choose not to believe in any 
organized religion, sometimes comes into question here.
    I think we are a tremendous force for freedom and 
independence, and we also have to figure out how it fits into 
other societies where traditional issues may make it more 
difficult to have the same set of rules that we operate under.
    Clearly, we would be uneasy in the midst of an attempt to 
bring some peace and order to Kosovo to see massive efforts at 
conversion and proselytizing going on. So I think what we have 
to do is make sure that our very serious and proper effort to 
give people religious freedom and to give religious 
organizations the rights that we would hope could exist in any 
society, I think we have to understand that not every society 
is the United States, and if we think of what is happening 
today in Lebanon, or if we go back a few years when the 
fighting between Muslims and Christians ceased, I do not think 
on day one we would want to argue, for instance, that everybody 
should be out there trying to proselytize each other.
    While I hope we can continue what we have done, I hope that 
we also recognize that there are societal differences, and that 
we want to make sure that as we press for religious freedom, we 
do not create flashpoints in societies; that this process has 
to be one that builds confidence that individual rights, 
individual family values, individual beliefs are protected as 
well.
    Thank you, very much.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I want to welcome our distinguished panelists 
and thank them for their great work they have done in this 
report.
    The first annual report of the United States Commission on 
International Religious Freedom is, indeed, a milestone in the 
struggle to end persecution of religious believers around the 
world. The chairman of the Commission, Rabbi David Saperstein, 
and the eight other commissioners are to be congratulated on 
their diligence and thanked for their courage.
    I am very pleased that Chairman Saperstein and 
Commissioners Elliott Abrams and Nina Shea could be here with 
us today.
    The 70-page report, together with a companion 158-page 
staff memorandum, carefully analyzes the factual situation in 
certain countries where religious freedom is stifled, and 
recommends concrete steps that the U.S. Government should take 
if it genuinely wants to improve religious freedom around the 
world.
    The report demonstrates that the Commission is doing its 
job looking honestly at the facts, and then speaking truth to 
power, whatever the political cost.
    In particular, it took great courage for the Commissioners, 
some of whom were appointed by President Clinton, to 
unanimously oppose Permanent Normal Trade Relations for the 
People's Republic of China.
    One of the report's key recommendations is that, while many 
Commissioners support free trade, the Commission believes that 
the U.S. Congress should grant China PNTR status only after 
China makes substantial improvement in respect for religious 
freedom. That would be as measured by several specific 
standards outlined in the report.
    That guidance, driven not by politics or ideology, but by 
the dismal facts of the situation in China, deserves careful 
consideration this week, and especially today as we move toward 
a vote on the House floor.
    I urge each of my colleagues to look at that documentation 
and to read other documentation like the country reports on 
human rights practices.
    Mr. Chairman, I think a little historical lookback very 
briefly is in order. We will recall that in 1992, President 
Clinton accused his opponent of coddling the dictators of 
China, and promised that he would deny MFN to China, and this 
is his words, ``As long as they kept locking people up.'' .
    Facing the spring of 1993 with a vote that was likely to 
strip China of MFN, Mr. Clinton preempted congressional action 
that year with the issuance of an executive order that gave the 
PRC one more year to reform--``significant progress in human 
rights'' were the words that were used in the executive order, 
and the President, in his speech, in announcing the executive 
order, said in part, ``Starting today, the United States will 
speak with one voice on China policy. We no longer have an 
executive branch policy and a congressional policy. We have an 
American policy. We are here today because the American people 
continue to harbor profound concerns about a range of practices 
by Chinese Communist leaders. We are concerned that many 
activists and pro-democracy leaders, including some from 
Tiananmen Square, continue to languish behind prison bars in 
China for no crime other than exercising their consciences. We 
are concerned by the Dalai Lama's reports of China's abuse 
against the people and culture of Tibet. The core of this 
policy will be a resolute insistence upon significant progress 
on human rights in China. To implement this policy, I am 
signing today an executive order that will have the effect of 
extending most-favored-nation [MFN] status for China for 12 
months. Whether I extend MFN next year, however, will depend on 
whether China makes significant progress in improving its human 
rights record.''
    Mr. Chairman, I and many others on both sides of the aisle, 
had nothing but praise for the President. However, within weeks 
and certainly within months, there were profound doubts about 
the seriousness of the policy.
    In January 1994, midway through the probationary period, I 
led a human rights mission to China, and was shocked to be told 
by every Chinese leader that I met, every single one of them, 
and I met with many, that Mr. Clinton would continue MFN 
without conditions, and that his human rights linkage was pure 
fiction.
    Ambassador Stapleton Roy accompanied me on many of those, 
and was a witness to them saying, we are going to get it. This 
is nothing but politics back in the United States.
    A year later, the Administration, after the executive order 
was issued, delinked human rights and trade. The Chinese 
hardliners' new profits trumped respect for human rights. A 
very dangerous precedent was set so that every dictatorship 
around the world stood up and took notice. When it comes to 
intellectual properties and the pirating of CDs and video 
cassettes, then and only then this Administration employs the 
credible threat of sanctions to ameliorate Beijing's behavior.
    Mr. Chairman, and Nina Shea and everyone who is testifying 
knows this, our subcommittee has had 18 hearings and markups, 
and several more where China was part, but 18 hearings and 
markups where we focused on Chinese religious persecution, on 
Chinese use of the Laogai, forced abortion, the ongoing 
oppression against religious freedom and Tiananmen Square 
protestors, the crackdown that has been unrelenting, and yet we 
continue this love affair with the Chinese dictatorship, hoping 
next year somehow things will improve.
    I want to thank, again, the Commission for the very 
important contribution it has made, looking only at the facts, 
and going where the facts take us.
    The Commission's report and recommendations on the Sudan 
outline a welcome and specific means of strengthening the U.S. 
response to the hell on earth that is created by Khartoum's 
genocidal religious war against southern Sudan. The United 
States must seek new ways of ending that conflict, which has 
already claimed 2 million lives.
    I am troubled that the State Department has restricted the 
Commission's access to documents regarding U.S. policy toward 
Sudan, and I intend to use my subcommittee's oversight 
jurisdiction to help rectify this denial of critical 
information to the Commission in the future.
    I am very glad there was a focus on the 1997 Russian law 
and on freedom of conscience and religious association being 
used to repress citizens. I am also glad that other examples in 
Vietnam, Saudi Arabia, and others are cited. Hopefully more 
will be done in those areas in the future.
    The United States Commission on International Religious 
Freedom, Mr. Chairman, has provided Congress and the 
Administration with a detailed, objective, and responsible 
blueprint for curtailing religious persecution abroad. I hope 
that every Member will read it. I hope members of the press 
will take the time to read it, analyze it, and hopefully we 
will act upon it in the very near future.
    Chairman Gilman. I thank the gentleman for his comments.
    If no other Member seeks recognition, we will now proceed 
with the testimony of our panelists.
    We have with us today Nina Shea, who is the director of the 
Center for Religious Freedom, Freedom House. She has had more 
than 20 years of work in international human rights as an 
attorney. She is the author of ``In the Lion's Den,'' a book on 
anti-Christian persecution around the world. Previously she 
served on the Advisory Committee on Religious Freedom for the 
Secretary of State.
    We also have with us Elliott Abrams, president of the 
Ethics and Public Policy Center. He is the former Assistant 
Secretary of State for Human Rights and for Inter-American 
Affairs in the 1980's. He is a former assistant counsel to the 
Senate Permanent Subcommittee on Investigation and special 
counsel to Senator Jackson, and served as Chief of Staff to 
Senator Moynihan.
    We have with us also Rabbi David Saperstein, who is the 
director of the Religious Action Center, Reformed Judaism. 
Rabbi Saperstein has headed several religious coalitions and 
served on the boards of numerous national organizations. He 
also is an attorney and teaches seminars in both the first 
amendment, church and State law, and on Jewish law at 
Georgetown Law School. He is the Chair of the Commission.
    His latest book is Jewish Dimensions of Social Justice, the 
United States Commission on International Religious Freedom, 
Moral Choices of Our Time.
    We welcome our three distinguished panelists. Our panelists 
may summarize their statement and put their full statements in 
the record. You may proceed according to your decision on who 
goes first.

STATEMENT OF RABBI DAVID SAPERSTEIN, CHAIR, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Rabbi Saperstein. Mr. Chairman, thank you very much, not 
only for the gracious invitation to appear here today on behalf 
of the Commission, but to you and Mr. Gejdenson and Mr. Smith. 
It is hard to think of three more effective and outspoken 
advocates on behalf of religious freedom across the globe, so 
we are eternally grateful for the leadership that you have 
shown in this, and for your lifelong work on behalf of the 
oppressed, wherever they might be today.
    We report to you on a milestone event, the issuance of the 
first annual report of the United States Commission on 
International Religious Freedom.
    It is a result of the IRFA process, the International 
Religious Freedom Act passed unanimously by Congress. The 
vision of the IRFA process is this: The founders of our country 
understood that the words ``were endowed by our Creator with 
certain unalienable rights'' put religious freedom at the 
center of the fundamental rights and liberties to which every 
human being is entitled.
    It is the first of the enumerated rights in our first 
amendment. It is central to the human condition and to what we 
have striven for during so many decades of the 200-plus-year 
history of this country; to ensure that the religious life of 
the individual and of religious communities could flourish 
without the government restraining or interfering with that 
freedom, that this is a part of the vision of human rights that 
cuts across the global community, and as such, it ought to be 
at the heart of the United States' foreign policy.
    As we look around the globe, however, we find that this 
fundamental liberty is under serious threat. In Sudan, the 
Islamist extremist government is bombing church-run schools and 
hospitals. In China, we see mass arrests of phoning 
practitioners, the harassment and arrests of leaders of the 
Muslim Uiger community, the continued systematic infringement 
of the Tibetan Buddhists' religious freedom, and the arrests of 
leaders of the underground Catholic and Protestant churches. In 
Iran, Baha'is are sentenced to death just because they are 
Baha'is.
    All these things testify that the work of this Commission 
is urgent work, work of fundamental liberty and of priority 
importance.
    There are two observations 1 year into this process. First, 
in creating the Ambassador-at-large for international religious 
freedom and mandating a State Department report once a year, 
something significant has changed in the way the U.S. foreign 
policy work is done.
    Over an extended period of time, in preparing the State 
Department report on religious freedom, foreign service 
officers and embassies across the world and regional bureaus 
here in Washington at the State Department, who are charged to 
oversee this report had to focus on what to say about religious 
liberty, how to deal with it, how to express it, how to define 
it, how to describe what is happening on the ground in 
countries across the globe, and what America's interests are 
regarding this issue. Difficult decisions required the 
attention and involvement of high-ranking State Department 
officials.
    As our Commissioners traveled to other countries this year, 
throughout the world we met and worked with foreign service 
officers who are now knowledgeable about the issue of religious 
freedom, who have nurtured relationships with religious leaders 
of oppressed groups and more accepted groups in those 
countries; who have overseen their plight; who have raised 
issues for them with the governments to which they represent 
us, and are involved in diplomatic efforts to combat religious 
persecution.
    It is the role of this commission on an ongoing basis, and 
then summarized once a year in its report, to make 
recommendations directly to the President, to the Secretary of 
State, and to you, the Congress of the United States, related 
to combating religious persecution and enhancing religious 
freedom.
    Because of the delay in appointments of members of the 
Commission and delays in the congressional funding, we have 
only been staffed for 6 months and in offices for about 4 
months. As a result, we decided that while, and this is the 
essential point, Mr. Chairman, that while engaging in the 
ongoing monitoring of general U.S. policy on religious freedom, 
while we were visiting a number of countries, while we made 
ongoing policy recommendations regarding emerging urgent 
situations wherever and whenever they occurred, and in total, 
these recommendations made throughout the years addressed 
urgent situations in nearly a dozen countries, that we would 
focus on three priority countries. This was not to the 
exclusion of other countries.
    Let me just take for a moment the country that you raised, 
Egypt. Throughout the year we kept a very clear eye on what was 
happening in Egypt. Twice we communicated directly with the 
national security adviser and with the President of the United 
States upon President Mubarak's visits here to raise the issue 
of religious freedom generally, and the situation of the Copts 
in particular. The President did so at a meeting. He was 
present in the room where human rights advocates raised these 
issues at the second meeting.
    We have urged the Secretary of State, who has been quite 
responsive to our requests, to continue to raise the issue of 
religious freedom in Egypt. That is representative of the work 
that we did in an ongoing basis in a number of countries.
    However, we hear your concern on this issue. It was not one 
of the three priority countries. We will be expanding the list 
of priority countries, a decision to be made over the next few 
weeks, which that would include. But we will continue to focus 
on Egypt and other countries whenever the circumstances so 
require. We will continue to share with you, Mr. Chairman, our 
views on that issue. We welcome your thoughts on this issue as 
to what we ought to be recommending and urging as well.
    Of the three priority countries that we focus on, two 
represented countries in which systematic egregious and ongoing 
manifestations of religious persecutions occurred. Those 
countries are China and Sudan. My colleagues will talk at some 
length on those two countries in a moment.
    At the same time, we selected another country that I will 
spend a few minutes on, Russia, which reflected a completely 
different dynamic, a country that allows much more religious 
freedom. There are not the same manifestations of religious 
persecution we find in the countries of particular concern, but 
there are, in Russia, growing problems.
    This is a country with which the United States has close 
relations, and the ability to make its voice heard more 
effectively. So we targeted Russia because there are so many 
religious groups in that country, and in many ways, it is a 
litmus test for all the other newly independent countries that 
have sprung up in central Asia and throughout Eastern Europe 
after the collapse of the Soviet empire.
    We are deeply concerned about some of the trends in Russia. 
In particular, we are concerned that in 1997, the Duma passed a 
so-called religion law that creates a hierarchy of religious 
organizations that effectively restricts the rights, powers, 
and privileges of smaller, newer and religious communities and 
establishes an onerous and intrusive registration process and 
other mechanisms of State interference with the activities of 
religious organizations.
    Congress has been following that. We commend the work of 
this Committee on behalf of the religious groups in trying to 
find ways to encourage Russia not to implement that law.
    At a national level, the country of Russia has been 
restrained. Clearly, at the regional and local level, however, 
there are widespread abuses.
    One of our major recommendations is that the State 
Department and the Congress monitor what is happening at the 
regional and local levels and try to encourage the national 
government to create checks on the abuses that are happening 
there as well.
    Mr. Chairman, there is a new development that should 
attract the attention of this Congress as an issue of urgent 
concern. On March 26, little noticed by the media, President 
Putin signed an amendment to the 1997 religion law.
    On the good side, it extended by 1 year the deadline for 
the registration or reregistration of religious organizations. 
However, it also had an alarming negative note, requiring that 
unregistered groups be liquidated after December 31, 2000.
    In addition, in January 2000, President Putin signed an 
important directive specifying that one of the measures 
necessary to protect Russian national security is ``a state 
policy to maintain the population's spiritual and moral welfare 
and counter the adverse impact of foreign religious 
organizations and missionaries.''
    Mr. Chairman, it is too early to say how this directive 
will be interpreted by regional and local authorities who have 
been the most zealous in denying registration, harassing, and 
liquidating unregistered religious communities. The range of 
groups that have been affected include the Roman Catholics, 
Mormons, Baptists, Seventh Day Adventists, even orthodox Old 
Believers.
    The liquidation of unregistered religious communities after 
December 31 of this year would have particularly grievous 
consequences for hundreds, if not thousands, of smaller 
religious groups.
    The Commission has, therefore, recommended that this 
Congress, the U.S. Government, continue as a major diplomatic 
priority to make efforts to insure that legitimate religious 
groups that have not registered are not liquidated. We hope you 
will join us in urging the President of the United States, when 
he meets directly with President Putin at the upcoming summit, 
to raise this issue as an issue of priority concern.
    Regional and local authorities not only have interfered in 
practice with the religious freedoms of unregistered groups. 
One-third of Russia's constituent regions have enacted 
regulations that are plainly unconstitutional and have affected 
all religious groups.
    Central authorities in most cases failed to enforce Federal 
law, and in many cases, have themselves been guilty of 
violating both national and international human rights 
standards.
    Let me bring to the Chair's attention one other development 
of this past week. There has been a long tradition of anti-
religious feeling against Muslims, against Jews, going back 
many decades, many centuries in Russia.
    We have seen some alarming new developments in terms of the 
Jewish community in the past week. Vladimir Kuzinsky, who is a 
media mogul there but the chair of the Russian Jewish 
Federation, has been targeted by the government television. He 
is accused of being your tool, the U.S. Congress, and of the 
international Jewish community.
    This is language that has no place being sanctioned by the 
government of Russia. We urge that our government ask the 
Russian government to stand up and to denounce the mounting 
anti-Muslim, anti-Jewish, anti-religious rhetoric that we are 
hearing here.
    This is something that needs to be dealt with at an early 
point, and your intervention on behalf of our efforts is of the 
utmost importance.
    Finally, I appreciate Mr. Smith's admonition that we need 
to have the full cooperation of the State Department on the 
whole. We have been surprised at the level of cooperation. They 
have been very open to our recommendations.
    We need their support in making documents available, and we 
need your support in the funding for this Commission in the 
future. We look forward to increased cooperative relations 
between the Congress and the Commission in the years to come.
    [The prepared statement of Rabbi Saperstein appears in the 
appendix.]
    Chairman Gilman. Thank you, Rabbi Saperstein.
    Former Assistant Secretary of State, Elliott Abrams.

 STATEMENT OF ELLIOTT ABRAMS, COMMISSIONER, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Abrams. Thank you, Mr. Chairman. My job is to talk for 
a few minutes about China. I guess I cannot complain about the 
timing today.
    The Commission did, over the last several months, conduct 
research, and we held hearings about religious freedom in 
China. We found a sharp deterioration in religious freedom in 
China in the past year.
    We found that violation of religious freedom in China is 
egregious, ongoing, and systematic. Let me give some examples 
of what we mean by that.
    First, the right to freedom of belief is explicitly denied 
to the 60 million members of the Chinese Communist Party, to 
all members of the Chinese military, and to all citizens under 
the age of 18, and that obviously means hundreds of millions of 
people.
    The State has reasserted its monopoly over the spiritual 
education of children, and participation by children in any 
religious activity can be prevented.
    Second, the State has control over all authorized 
religions. Regulations now require that all religious groups 
register with local units of the Religious Affairs Bureau of 
the Ministry of Civil Affairs, and affiliate with an official 
organ of one of the five recognized religions.
    It is in this very narrow officially sanctioned space, this 
cage, that people may exercise their religious beliefs in 
China. Many of these limits imposed on registered churches are 
clearly in violation of accepted international standards of 
freedom of religion, such as the Universal Declaration of Human 
Rights.
    To take one example, authorities limit the building of 
mosques, monasteries, and churches, even for the approved 
religious groups. They restrict the numbers of students in 
Christian seminaries, in Buddhist monasteries, in Islamic 
schools.
    Third, it seems that the authorities are determined to 
eliminate all religious activity they cannot directly control. 
If it is not under government control, they want it stopped. Of 
course, the clearest example of this are the Protestant house 
church movement and Catholic churches loyal to the Vatican. 
Leaders of large Protestant house church networks who in 1998 
challenged the government to a dialogue, have been targeted for 
arrest. Unauthorized Protestant places of worship have also 
been destroyed.
    There is a concerted effort to eliminate underground 
bishops and bring them under the authority of the officially 
sanctioned Catholic church. The bishops are being pressed not 
for cooperation only, but for obedience. In January of this 
year, the official government Catholic church ordained five 
bishops without Vatican approval.
    Probably the worst incident in the last year happened 1 
year ago in May 1999, when a young priest, Father Yan Wei Ping, 
was detained while performing mass. He was found dead on a 
Beijing street shortly after being released from detention.
    There is continuing repression in Tibet and Xinjiang, some 
of the worst repression in China. Amnesty International reports 
that the authorities in Xinjiang have closed mosques and 
Koranic schools, halted the construction of unauthorized 
mosques, prohibited the use of Arabic script, and required 
Muslims who are party members or who work in government offices 
to abandon the practice of Islam or lose their jobs.
    In Tibet, religious institutions are likewise tightly 
controlled. To take an example of what is going on, in 1995, 
the Dalai Lama identified a young boy as the new Panchen Lama. 
The Chinese government immediately denounced his choice, 
detained that boy and his family, and pushed the acceptance of 
their own choice as the new Panchen Lama.
    The Chinese authorities continue to hold the Panchen Lama 
at an undisclosed location and refuse all requests to visit him 
put forward by official and unofficial foreign delegations. 
Over 1,000 monks and nuns were expelled from their monasteries 
in 1999, making over 11,000 since 1996.
    Finally, I would mention the Falun Gong Sect. You are 
familiar, of course, with what has happened. The government 
detained more than 35,000 Falun Gong practitioners in the last 
year. Some detainees were tortured. Others have been held in 
mental institutions for reeducation. In closed trials, some 
Falun Gong leaders have received prison sentences of 6 to 18 
years.
    When Congress established the Commission, you asked us to 
make recommendations about policy to the executive branch and 
the legislative branch. Commission members represent both 
parties and represent several religions, but we were unanimous 
in our recommendations about China. Let me just read you what 
we said about China.

    The Commission believes that in many countries, including 
some of China's neighbors, free trade has been the basis for 
rapid economic growth, which, in turn, has been central to the 
development of a more open society and political system.
    This belief has been a major factor in the annual decision 
by presidents and congressional majorities of both parties to 
grant MFN to China each year over the past two decades.
    Moreover, a grant of PNTR and China's membership in the WTO 
may, by locking China into a network of international 
obligations, help advance the rule of law there in the economic 
sector at first, but then more broadly over time.
    Nevertheless, and this was the Commission's recommendation, 
given the sharp deterioration in freedom of religion in China 
during the past year, the Commission believes an unconditional 
grant of PNTR at this moment may be taken as a signal of 
American indifference to religious freedom. The government of 
China attaches great symbolic importance to steps such as the 
grant of PNTR, and presents them to the Chinese people as proof 
of international acceptance and approval.
    The grant of PNTR at this juncture could be seen by Chinese 
people struggling for religious freedom as an abandonment of 
their cause in a moment of great difficulty. The Commission, 
therefore, believes Congress should not approve PNTR for China 
until China makes substantial improvements in respect for 
freedom of religion.

    We then gave some recommendations. We suggest the following 
standards for measuring whether there have been improvements in 
China:
    (1) An agreement by China to establish a high-level 
dialogue with the United States about religious freedom.
    (2) China has signed the International Covenant of 
Political and Civil Rights in 1997 and never ratified it. What 
about ratification?
    (3)Permitting unhindered access to prisoners, religious 
prisoners, for the Commission or other groups like it; 
disclosure of the condition and whereabouts of persons 
imprisoned for reasons of religion or belief; release from 
prison of all persons incarcerated for religions reasons.
    (4) We also hope Congress would establish a mechanism for 
annual review of human rights in China, annual hearings or 
proposals like the Levin Commission.
    (5) We urge that Congress invite the Dalai Lama to address 
a joint session of Congress.
    (6) We hope the United States will continue to initiate a 
resolution to censure China at the annual U.N. Human Rights 
Commission meeting, and that this effort, which we failed at 
for several years now, be led personally by the President.
    (7) We urge a multilateral campaign to seek the release of 
Chinese religious leaders imprisoned or under house arrest.
    (8) We urge the United States to raise the profile of 
conditions in Xinjiang for Uighur Muslims there.
    (9) Finally, we urge the United States to use its 
diplomatic influence with other governments to ensure that 
China is not selected as a site for the International Olympic 
Games.
    The Commission does not suggest that all the actions 
outlined above serve as preconditions for PNTR. They are 
standards to measure progress. We did not propose a strict 
formula. Congress must weigh the evidence and decide how much 
must be done before PNTR is granted.
    Without any further action, we fear that elimination of the 
annual review mechanism for trade relations with China may be 
seen as a symbol of American indifference to human rights and 
religious freedom in that country. That would be a terrible 
message to send to the government and to the people of China.
    Mr. Chairman, thank you for the privilege of appearing here 
today. Thank you for our continuing leadership on religious 
freedom and human rights issues around the globe.
    [The prepared statement of Mr. Abrams appears in the 
appendix.]
    Chairman Gilman. Thank you, Secretary Abrams.
    Ms. Shea.

   STATEMENT OF NINA SHEA, COMMISSIONER, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Ms. Shea. Thank you, Mr. Chairman, for inviting me to 
testify on behalf of the Commission today. I will be addressing 
Sudan.
    The United States Commission on International Religious 
Freedom decided to focus on Sudan because we found that it is 
the world's most violent abuser of the right to freedom of 
religion and belief.
    A civil war has raged in Sudan for 17 years, a war that 
ignited when the regime in Khartoum attempted to impose Sharia 
or Islamic law on the non-Muslim south and in which religion 
continues to be a major factor.
    Last January, Commissioner Elliott Abrams traveled to the 
Sudan for the Commission and interviewed a church leader, who 
concluded that the government would like to remove the church 
from Sudan, to ``blow out the candle,'' as he put it so 
poignantly.
    Moreover, he said this persecution is intensifying, making 
ever worse the security problems the church faces from the war 
itself. ``Islam is the crux,'' he explained. The government 
wants all the resources in its hands, and wants to use them to 
create a fully Islamic country, he told Commissioner Abrams.
    As it prosecutes its side of the war, the government of 
Sudan is carrying out genocidal practices against its religious 
and ethnic minorities. Such practices include aerial 
bombardment, scorched Earth campaigns, massacres, slavery, 
forcible conversion, and its most lethal tactic, what Senator 
Frist has termed ``calculated starvation,'' which brought 2.6 
million people to the brink of starvation in 1998 alone.
    Calculated starvation is achieved by using brutal means to 
drive entire communities off their lands, thus creating vast 
numbers of internal refugees who are dependent on humanitarian 
relief for survival, while at the same time barring 
international relief flights from delivering aid.
    Estimated at 4.5 million, they number the largest 
internally displaced population in the world. As a direct 
result of the conflict, some 2 million persons have been 
killed, mostly Christians and followers of traditional beliefs 
in south and central Sudan. This is more than Bosnia, Kosovo, 
Rwanda and Sierra Leone combined.
    That the government of Sudan has not yet prevailed in the 
war may be due to the fact that until last year, it has been 
financially strapped and in default to the IMF and other 
international lenders. Last August, oil developed in south 
Sudan by foreign companies in joint venture partnership with 
the Khartoum government came on stream, and has begun to 
provide windfall profits to the regime, as well as a critical 
source of new international respectability.
    As Secretary Albright recognized, the proceeds from the oil 
revenues will be used to support the Sudanese military's 
actions, and the human tragedies in Sudan are likely to become 
worse. There is ample evidence that this is already happening.
    Since February, a Catholic primary school in the Nuba 
Mountains has been bombed, killing 19 children and their 
teacher. Samaritan's Purse Hospital near Juba, operated by the 
family of Reverend Billy Graham, has been bombed five times. A 
clinic of Voice of the Martyrs, the Clinic of Irish Concern, 
and other relief centers, churches and civilian targets in 
south Sudan, have all been bombed by the government in one of 
the most relentless bombing raids of the war. This is all since 
February.
    In addition to the conflict which the Sudanese government 
declares to be a Jihad against both non-Muslims and dissident 
Muslims, the regime is responsible for other forms of religious 
persecution throughout the country. These concern the 
Commission as well.
    Muslims who do not subscribe to the government's extremist 
interpretation of Islam are persecuted. They are forced to 
conform in their dress, their prayers and practices, and in 
their sermons to the regime's strict interpretation of Islam.
    Other Muslims are perceived as disloyal to the regime, 
declared apostate, and thus targeted for death. Christian 
schools were nationalized in 1992. Christian churches and 
prayer centers continue to be demolished, and the government 
has not granted permission to build or repair a church in over 
30 years. The regime suppresses Christian and African 
traditional religions in a variety of ways.
    The scope of the humanitarian tragedy of Sudan dwarfs all 
those of other recent conflicts, and yet Sudan receives far 
less international attention. Neither the international 
community nor the United States has any plan to address the 
mounting tragedy in Sudan, although the United States 
Commission proposes a comprehensive set of policy options to 
significantly strengthen the United States' response to the 
crisis in Sudan.
    The Commission's recommendations provide both disincentives 
and incentives for the Sudanese government to comply with 
international standards of religious freedom and other basic 
human rights.
    These include bringing world moral opprobrium to bear upon 
the genocidal regime by raising the profile of the Sudanese 
regime's atrocities, given Sudan's greater priority in foreign 
policy, and making a determination on whether it, in fact, 
constitutes genocide under international law.
    Our recommendations also include providing non-lethal aid 
to opposition groups in order to strengthen the defenses of the 
vulnerable civilian populations once certain conditions are 
met.
    In addition, the Commission recommends increasing economic 
pressure on the regime, especially by restricting foreign 
companies involved in Khartoum's strategic oil industry from 
raising money in U.S. capital markets.
    The Commission calls for greater transparency and 
disclosure for foreign companies engaged in Sudan's oil sector 
that are seeking to obtain capital in U.S. markets. Also, 
because of the extremely egregious, in fact genocidal, nature 
of the religious persecution in Sudan, the Commission urges 
that access to U.S. stock and bond markets be restricted in 
this specific case where foreign companies are engaged in a 
Sudanese enterprise that is itself sanctioned under U.S. law.
    Because the regime continues its genocidal practices, the 
Commission's recommendations also set forth measures to 
ameliorate the agony of the targeted population in south and 
central Sudan. These include ensuring food aid reaches starving 
communities by channeling more aid outside the U.N. system, 
supporting through peaceful means a military no-fly zone, and 
strengthening an infrastructure to sustain civilian life in the 
South.
    The Commission's recommendations, for the most part, are 
based on the same principles that proved so effective in ending 
apartheid in South Africa during the 1980's. That is, 
identifying the Sudanese government as a pariah state and 
intensifying its economic isolation.
    None of the Commission's recommendations call for the 
involvement of U.S. troops or U.N. peacekeeping forces. They do 
not risk involving the United States in a dangerous quagmire of 
financial and military obligations. They do require American 
resolve and leadership.
    Past occurrences of genocide fill the pages of our 
newspapers to this day, and they continue to haunt our policy 
leaders. The Commission recommendations are intended to help 
while lives remain to be saved, and to do so through peaceful 
means.
    This concludes my testimony, Mr. Chairman. I refer you to 
my written statement.
    [The prepared statement of Ms. Shea appears in the 
appendix.]
    Chairman Gilman. Thank you, Ms. Shea, for your statement. I 
thank our panelists for taking the time to be with us this 
morning.
    I will address a few questions and then turn to my 
colleagues.
    Mr. Abrams, on human rights, we pursue diplomatic 
engagements, but things seem to have gotten worse and worse. 
Why have we had so little apparent impact on China? How should 
we look at, for example, the Patriotic Association of Churches? 
Should we shun them as collaborators with the government or 
embrace them, since they are trying to survive under an 
undemocratic government?
    Mr. Abrams. Mr. Chairman, if I can take the second question 
first, I think we should, in essence, embrace them. I think if 
you take the Chinese so-called Patriotic Church, those are 
people who, if they could safely do it, would be loyal to the 
Vatican. There is no indication, no reason to think that they 
would not. But these are people who may be forced or be 
unwilling to take the risks themselves or for their families 
and children of acting outside the officially sanctioned 
Catholic church.
    I think the Vatican's own position toward them is that the 
door should always be open to them, and that there is nothing 
to be gained by condemning them or shunning them.
    Why have we had so little impact? That is a very, very 
tough question. I would offer one theory. I think the regime in 
China is an illegitimate regime. I do not think there are very 
many communists left in China, including in the government.
    The whole ideological basis for the regime is gone, and I 
think the people who are running the country are terrified of 
alternative belief systems like Buddhism, Christianity, Islam, 
and desperate, therefore, to try to keep them from growing. 
Those are losing battles over the long run, because the 
regime's lack of legitimacy I think is increasingly obvious 
inside China, even inside the government.
    I think what that should lead us to believe is that we need 
to keep it up, to keep up the human rights pressure until there 
is improvement.
    Rabbi Saperstein. Mr. Chairman, may I just add a word to 
that?
    Chairman Gilman. Yes, Rabbi Saperstein.
    Rabbi Saperstein. The question is often asked, we have had 
MFN. We do it every year, there has not been improvement. It 
has not worked. We also could say we have had expanding trade 
over the last decade, we have had far more interaction than we 
have had, and there has not been a noticeable impact, as well.
    I think it is important to realize that we crafted our 
recommendations on things we thought were actually politically 
doable for the Chinese government, and that would have an 
impact. We did it because in the past, there has been a 
connection. When MFN was up in 1992, Han Dongfun was released, 
and Liu Qing was released, Wang Dan was released when MFN was 
up the next time, and when the IOC was considering having the 
games there.
    Likewise, Wei Jingsheng was first released during the 
debate of the IOC on whether or not to have the games there in 
his first release in 1993.
    We can go down the list. The PRC issued white papers on 
human rights when they began to negotiate with the 
International Red Cross, when they invited the U.N. Special 
Meeting on Religious Intolerance, the U.N. Working Group on 
Arbitrary Detention. All of these were at times when MFN was 
being considered again, during that period of time when the IOC 
was making recommendations on where the Olympic games should 
be.
    While it is always difficult to prove cause and effect, and 
you have to be a little concerned about the post hoc, ergo 
propter hoc, that because things happen at the same time, they 
are connected. The pattern has been that within certain limits, 
the Chinese government has tried to make improvements to send 
messages to the broader international community.
    We chose things we thought were doable and that would send 
those messages and begin to make significant improvements. We 
think it was a wise approach for the Congress to adopt.
    Chairman Gilman. Thank you, Rabbi.
    Ms. Shea, considering the overall U.S. policy toward Sudan, 
we are concerned by the perceived ad hoc nature of our 
initiatives. When we try to enunciate what our policy is to the 
Sudan, we find it difficult to enunciate that.
    In your opinion, what is our policy, or what should be our 
policy toward Sudan?
    Ms. Shea. Mr. Chairman, we have devised a comprehensive 
plan over the next 12 months for Sudan. This would be a package 
of incentives and disincentives based on whether or not there 
is substantial and systematic progress in the human rights area 
in Sudan, as measured by such things as stopping the bombing, 
stopping the enslaving, stopping the massacring and the 
calculated starvation, which killed so many people.
    This would mean that we would be linking--we propose 
linking rewards such as diplomatic relations or more 
humanitarian aid to the areas under the government control, and 
linking sanctions, such as multilateral trade sanctions, 
capital markets sanctions, so forth, to the behavior of the 
government over the next 12 months.
    If there is a marked deterioration and/or if there is no 
sign that the government is seriously engaging in any type of 
human rights reform, then we propose actually giving non-lethal 
aid to the opposition forces.
    What we lack right now is any kind of comprehensive policy. 
At some points we see criticism by the Secretary of State of 
the government, and in the next week we may see a lifting of 
sanctions for some Arabic companies. The next week we may see 
granting an IPO, as we did--granting permission for an IPO in 
China in April.
    This carve-out entity, an artificial carve-out entity of 
CNPC, which is the largest financier of the pipeline that is 
fueling Sudan's prosecution of the civil war, it is all over 
the place.
    Chairman Gilman. Thank you very much.
    Rabbi Saperstein, we appreciate your comments about the 
persecution in Egypt. Can you tell us why Egypt was not one of 
the countries that received special attention from the 
Commission this year? We just heard some very distressing 
testimony the other day about the killing of some 20 people, I 
think it was in El Kush. Would you comment on that quickly?
    Rabbi Saperstein. Surely. We have been following that 
incident very closely. There have been two major incidents a 
year apart in El Kush. That is exactly why we made the 
recommendations to the President.
    We did not choose Egypt simply because we felt that China, 
as the largest country in the world population-wise, proved 
itself to be an equal opportunity depriver of fundamental 
rights and could not be ignored. Sudan, for the reasons that 
Ms. Shea articulated, could not be ignored. We wanted to show a 
completely different paradigm with another very influential 
country.
    We had limited time this year because of the lateness of 
starting up, but we did follow what was happening in Egypt and 
a number of other countries. We will continue to do that. 
Whether or not Egypt will be on our expanded list of in-depth 
countries we will look at, we will decide that in the next few 
weeks. Your personal concern about this will certainly be taken 
into consideration.
    There are a number of factors we have to weigh in doing 
that, but Mr. Chairman, no matter what, whether it is an in-
depth country or not, we will continue to monitor on an ongoing 
basis and make recommendations on an ongoing basis to the 
Administration on the situation in Egypt.
    Chairman Gilman. Thank you very much.
    Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman.
    I was unable to hear your testimony, Mr. Abrams, but I 
would like to begin with a brief question.
    Has the Commission taken a position on PNTR, and if so, 
what is it?
    Mr. Abrams. Yes. The Commission urged that Congress not 
approve PNTR until there is improvement in the human rights 
situation in China. We gave a list of not preconditions, but 
standards we thought that Congress might use to judge whether 
there had been any improvement.
    Mr. Payne. As for the question regarding the Chinese 
Christians, there is an indication that many Chinese attend 
churches. These churches are often officially recognized by the 
Chinese government, and many are crowded every Sunday.
    In your research on China, did you speak with 
representatives from these state-recognized churches? If so, 
were you able to differentiate between the percentage of 
Chinese Christian worshippers at official churches as opposed 
to unofficial churches?
    Mr. Abrams. I have some numbers in the report. I am not 
sure I am going to be able to pull them out that quickly.
    I guess I would say in a certain sense there is an 
artificial distinction between the official and unofficial 
churches. If you are taking Protestant or Catholic churches, 
beliefs are basically the same. Some people just do not want to 
take the risk or the hassle, the dangers of being in an 
unofficial church, and therefore affiliate with the official 
one, but they are not enemies.
    I think that if religious freedom were to come to China, we 
would see the merger of the official and unofficial very 
quickly.
    If I could supply the numbers for the record, we do have in 
our report some estimates.
    Mr. Payne. Thank you.
    What is the current situation with the Falun Gong as it 
relates to the movement? Are arrests still being made?
    Mr. Abrams. There are. There has been no change in the 
government's policy toward Falun Gong. There are actually other 
groups of a similar nature that are still very much being 
persecuted by the government. Arrests continue. It is kind of 
amazing that, with the number of people detained, and the 
government admits to 35,000 people having been arrested, they 
have not been able to crush that movement. Practitioners 
continue to show their faces in Beijing and to be arrested. 
There has been no change in the government's attitude.
    Mr. Payne. Finally, how do you think we can pressure the 
Chinese government to begin negotiating with the Dalai Lama or 
the Tibetan government in exile? Do you think the State 
Department ought to step up its game plan?
    Mr. Abrams. We have made one proposal in our 
recommendations with respect to the PNTR debate. That is that 
you, in Congress, invite the Dalai Lama to address a joint 
session, by way of kind of raising his stature and showing the 
Chinese government that the United States is not going to 
abandon its support for freedom of religion in Tibet.
    The Dalai Lama himself has taken a very accommodating or 
compromising view over the past decade with respect to China 
and is not demanding independence for Tibet at all, but the 
Chinese position seems to have hardened over the last few 
years.
    I think the answer is to continue to give the Dalai Lama 
the respect and consideration that he deserves, and to show the 
Chinese government that this is not an issue that is going to 
go away, and that it is one that actually engages the beliefs 
and emotions of many Americans who are, of course, not 
Buddhists.
    Mr. Payne. Let me ask Rabbi Saperstein quickly, I know you 
traveled to PRC with one of my constituents, Monsignor 
McCarrick. You were on that trip, right?
    Rabbi Saperstein. I actually was not. I have been to the 
PRC. That was Rabbi Schneier, my friend and colleague, who went 
on that trip.
    Mr. Payne. I know he insisted on seeing prisoners and it 
was not on the schedule.
    Rabbi Saperstein. Of course, Archbishop McCarrick is one of 
the non-members of the United States Commission on 
International Religious Freedom, so we would be glad to have 
him respond to any questions that you would like. We can do it 
in writing afterwards.
    Mr. Payne. Finally, I will ask Ms. Shea, about the current 
policy mentioned. Several trips were made, one with Mr. 
Campbell to the south Sudan, another with Mr. Tancredo, and 
many years ago I traveled there as well. We see that the 
problem continues.
    As you may already know, we had a provision in the current 
legislation which would allow food assistance going outside of 
the OLS regime. OLS is controlled by the government of 
Khartoum, and uses food in many instances as a weapon, as you 
mentioned about the near starvation in 1998.
    We received strong opposition from traditional 
organizations like CARE among others. They opposed alternative 
routes of having this food made available, which I strongly 
support.
    Has your organization taken any kind of initiatives, since 
you strongly support non-lethal goods to the SPLM, the 
movement, and people in the South? Have you had any discussions 
with the opponents of this alternative food source, and what 
has been the result?
    Ms. Shea. Thank you for your question. Of course, I am very 
much aware of your own efforts, and Mr. Campbell's and Mr. 
Tancredo's efforts on Sudan. I want to thank you very much. 
After all, you were the sponsor of Resolution 75, which is so 
important and historic.
    We have had hearings on Sudan. Commissioner Elliott Abrams 
went to Sudan for the Commission. We have talked to a wide 
range of people. I think there are two issues involved here. 
One is food aid that bypasses the U.N. system that defies the 
veto of Khartoum, that gets through to the starving people. We 
recommend that the U.S. Government should increase its aid to 
non-OLS providers so food aid gets to the people.
    We also address the question of whether to give non-lethal 
aid to the rebel forces. We determined that after a 12-month 
period, if the government shows no sign of progress, systemic 
and substantial progress in human rights, and if the rebel 
forces themselves, the opposition forces show or adopt some 
kind of procedures for improving its human rights record, and 
we recognize it has problems, such as, procedures for a fair 
trial or giving access to human rights observers. If those 
conditions are met, we then urge that non-lethal and 
humanitarian aid be provided to these forces through non-OLS--
not through OLS or non-OLS distributors; that is, not going 
through the usual humanitarian groups, but actually providing 
them some other way.
    Mr. Payne. I certainly support that. I would even go a step 
further, if there will continue to be the offensive as when we 
were there last time. They come and drop bombs. When we had the 
new Ambassador and the special envoy to Khartoum, as he was 
meeting they bombed the south. It happened when Jimmy Carter 
was there.
    It seems to me to be a pariah government, whether Basheer 
says it is Terrabe, and whether this battle is going to be 
important or not, at some point in time we need to look at not 
only non-lethal, but lethal support for the movement in the 
south. I yield back the balance of my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I just want to say at the outset that there are many 
Members of Congress, and Mr. Payne, is one of the most 
attentive Members to human rights issues and has always been at 
my subcommittee hearings. Even though he is not a member, he 
comes and fully participates. But his question to Mr. Abrams, 
former Secretary of State for human rights, I think underscores 
a real problem that we have had with the media especially.
    Had the United States Commission on International Religious 
Freedom, had your Commission come out in favor of granting 
permanent normal trade relations, it would have been a story 
for a week. There would have been in-depth interview. All of 
the Commissioners, all of you would have been--and I say this 
without fear of exaggeration--you would have been showcased, if 
you will, on television after television.
    We have had, as I said earlier, hearing after hearing on 
Chinese human rights abuses, 18 of them. And I personally have 
gotten on the phone, called The Washington Post, called all of 
the papers. My press secretary has done it. Time and time 
again, the press table was absolutely absent. Occasionally we 
got an AP reporter to string by and pick up a thing or two and 
then walk out.
    There has been very, very little focus on the real 
situation on the ground, leaving the ground open for a 
tremendous and very effective disinformation campaign that has 
worked like a charm.
    The real situation on the ground is laid out in the Human 
Rights Practices Report by the State Department, 77 pages of 
single-spaced type telling all of us about what is actually 
happening and continues to happen in China. Yet we get this 
sugarcoating by the media about what is truly going on there.
    One thing I think needs to be made very clear, Mr. 
Chairman. We have never had linkage of human rights with China. 
We had the attempt at it by the Clinton Administration for 1 
year. I happen to believe, in looking at the full story, it was 
a very disingenuous exercise. As I said in my opening 
statement, weeks after it was linked, so-called, people in the 
State Department and many others said we really did not mean 
it. Do not worry about it.
    I saw that in full force in Beijing talking to high level 
Chinese officials who said, there is no doubt we are getting 
MFN. Mr. Clinton will just rip up that executive order, which 
is what he did. So Potemkin Village has been sold to the 
American people, and your report, I think, does a tremendous 
job in trying to at least bear witness to the truth.
    I want to point out as well that Stephen McFarland did a 
great job as executive director of the hearing that we had just 
several days ago. When asked a number of probing questions, he 
spelled out the situation. I want to thank him for his 
expertise and his commitment to truth, as well.
    Let me just, again, point out that there has never been a 
linkage. We have had an experiment in delinkage, and things 
have gotten worse. We have had delinkage throughout the Bush 
Administration, we have had delinkage throughout the Clinton 
Administration. So anybody who says--and let me just also say, 
even with the idea of the annual review, when you have a 
president who stands ready to veto, that means you need super 
majorities in the House and Senate.
    The threat has not been credible except when it comes to 
intellectual property rights. There it is, a credible threat. 
There we see real movement.
    That is why, Mr. Chairman, today's vote is so important, 
because we have an opportunity to say we are going to hold 
something back for real. There is no gamesmanship here, no 
brinksmanship here. Should we succeed today, I think we see 
some changes on the edges.
    You see on the statement, there has been a sharp 
deterioration in freedom of religion. We have been tracking, 
and Amnesty and all the human rights groups have been tracking 
a steady downward spiral in each and every category of human 
rights observance, or lack of it. You point out a sharp 
deterioration.
    Would you elaborate on that?
    Mr. Abrams. One example of that would be the Falun Gong. If 
one goes back, say, 2 years ago, this was not happening. All of 
a sudden, there is an extraordinary attack on the Falun Gong 
and other similar movements.
    I think it is also fair to say that there has been a 
further clampdown in the last year both in Xinjiang and in 
Tibet, and there are some very obvious cases of this.
    I think we would say that the trend over the years has been 
down, but that it has been down even more sharply over the last 
12 months. What is extraordinary about that is that the Chinese 
government knew this debate was coming. This is not a surprise, 
that PNTR is going to come up in the year 2000. Nevertheless, 
they clamped down vigorously on religious freedom in China, 
presumably with the calculation that in the end, not enough 
Members of Congress would care enough about it.
    Our fear is that whatever motivates Members to vote the way 
they do, and there are many motivations, our fear is that the 
wrong message will be received by the Chinese government and 
the Chinese people. The message they take away from this will 
be, we can keep it up because the Americans do not care that 
much.
    Rabbi Saperstein. Let me just add something that I think is 
remarkable about this report and the recommendations.
    Chairman Gilman. Rabbi Saperstein.
    Rabbi Saperstein. That is about the background, political 
and religious, about the viewpoints of people on this 
commission. There are some who would agree with every word that 
you have said. There are some who are strong free traders. 
There are some who really believe the Administration is right 
in its argument about constructive engagement in the long run.
    There are some who would disagree with what you said, who 
really believe that this is an Administration that is deeply 
committed to human rights and to religious freedom. I tend to 
fall into that group myself.
    Yet, despite that, it was unanimous. Indeed, of the 50-
some-odd recommendations in the report on China, Sudan, Russia, 
how the State Department should do its work even more 
effectively than it has done, all but one of the 
recommendations was unanimous. In that one recommendation there 
was a single dissent.
    We really worked hard to come up with this. On this point, 
PNTR, with all the differences of our assessment of the 
Administration, all of the differences in our sense of the 
approach of what works and what does not work, the one thing 
that was clear to us, in light of your question, is that in a 
year that there have been such disastrous reversals, that we 
needed to pick things that were doable.
    If the Chinese government wanted to send signals to us that 
they want a new relationship on these issues, they want an 
appropriated relationship on these issues. We picked things 
that were doable, that they really could do and do soon. We 
think that is the proper position.
    Mr. Smith. If I could, Mr. Chairman, just very briefly, Wei 
Jingsheng, when he has testified said, and this is 
counterintuitive to some, at least, that when we are making 
nice with the Chinese dictatorship, they actually treat the 
prisoners, democratic prisoners and religious prisoners, more 
harshly than when we have an edge, when we are saying that we 
really mean business.
    Let me also say, Nina Shea gave us, Frank Wolf and I, a 
list of religious prisoners a year ago that Frank literally put 
into Li Peng's hand. Li Peng was so dismissive, so incredibly 
arrogant in saying this is not true. None of these people are 
here because of their beliefs. He just blew it off as being 
totally irrelevant. He looked at the list and would not even 
touch it. Frank was handing it to him. He repelled and put his 
hands back as if it was electrified in some way. It was 
incredible, an insight. Then he went on and gave this 5-minute 
dissertation about how there is no such thing as religious 
repression.
    That kind of denial in the face of the facts needs to be 
met with the reality, which you have done.
    Finally, let me just say, the $3 million per year provided 
to the Commission, is it adequate? Is it being provided? Are 
you hopeful that it will be provided by the Committee on 
Appropriations?
    The expedited removal process, which is mandated by the 
International Religious Freedom Act, we understand there are 
some problems with funding there, if you will take a moment to 
elaborate on that.
    Rabbi Saperstein. I can do it briefly. We are OK on the 
funding on the expedited removal provisions. There were some 
technical requirements on what the Congress hoped to effect 
with this. It took us a little longer to go through. We needed 
to get out a description of the proposals and to ask the people 
to come in in a formal way that we did not anticipate in the 
beginning.
    Because of the lateness of our funding from the Congress 
and the lateness of the appointments of the Commissioners, we 
did not have time to complete that work. We hope to do so over 
the next months.
    In terms of the general funding, we have looked very 
carefully at the budgetary issue. The original legislation had 
a $3 million authorization a year. When the Congress put the 
correcting legislation through, unfortunately, it stripped the 
multiyear authorization requiring it to be reauthorized every 
year. That means we will need your support and attention on 
this. I appreciate it.
    We have gone through our budget very, very carefully. 
Because we were late starting up and there is some money left 
over this year, we were able to tighten things up and to ask 
for a $2.5 million authorization or appropriation.
    We have really tried to be responsible in this. Although 
the $3 million politically you would agree on, we are asking 
for the $2.5 million. We hope we will have your strong support 
for that, Mr. Chairman, the strong support of this Committee 
for the appropriation this year.
    We appreciate the letter that you and Mr. Gejdenson have 
already sent and the support some of you have given us here. 
That will allow us to do the kind of work you wanted us to do 
effectively in the future.
    Mr. Smith. Thank you, Rabbi Saperstein, for your 
outstanding work and efforts, and to Mr. Abrams and Nina Shea, 
thank you very much.
    Chairman Gilman. Mr. Campbell.
    Mr. Campbell. I have two questions, one on Vietnam and one 
on Sudan. I will address the questions on Sudan to Ms. Shea, 
but I don't know to whom I should address the question on 
Vietnam, so perhaps to any of you.
    This question stems from my visit there in December with my 
wife and Congressman John Cooksey and Congressman Don Payne. In 
going through, we made a visit to Thich Quang-Duc, who is 
leader of the non-government Buddhist church effectively, 
because the venerable leader in Wai is under pagoda arrest. So 
instead we visited with Thich Quang-Duc.
    The government did not put it on the schedule, but I just 
went. I got in a taxicab and went. As we were leaving, 
incidentally, the government guides said to Congressman 
Cooksey, so it is a bit hearsay now, you can go anywhere in Ho 
Chi Minh City, even to visit Thich Quang-Duc. That was to kind 
of let us know that they knew that we had gone.
    He is a remarkable man, and I was proud to sponsor him, 
along with a lot of our colleagues, for the Nobel Peace Prize.
    I don't know your recommendations regarding NTR, because we 
have that annual vote on Vietnam just as we do with China. Did 
you form a recommendation, that is my first question?
    I will ask my question on Sudan now. My time will run out, 
but the Chairman will be more lenient on you answering than on 
me asking. That is not true, by the way. He is a very lenient 
Chairman and a great American.
    The Sudan question I want to put to you very candidly. Here 
is the other side. I want to get your response to the other 
side, OK? So understand, and I am sure you do, that this is not 
necessarily what I think is right.
    The other side argues, Sudan is a created country. It does 
not make any sense to have an Arab north, a black south. The 
province of Equatoria, for example, was fought over between the 
French and British in the famous nonbattle at Fashoda. The 
result is an illogical country. Ever since, the south has been 
trying to break off. That is true throughout the Sahel in 
Africa, countries that make very little sense from an ethnic or 
historical point of view.
    What we have going on here is a civil war. That does not 
mean there are not human rights abuses, that does not mean that 
there is not starvation or the use of food as a weapon. But the 
rebuttal is, it is not religious. It happens to be that the 
north is Muslim, it happens to be that the south is, they say 
animist or Christian.
    In reality, this rebuttal goes, the war is a civil war 
based on an illogical creation and really is not related to 
religious persecution. So do we, therefore, not care about it 
or say it is irrelevant? No. But it may not be right to call it 
what you have called it.
    Those are the two questions I would like to hear answers to 
on Vietnam and Sudan.
    Rabbi Saperstein. Let me try the Vietnam question quickly, 
and ask Elliott Abrams, who has also been involved in this, or 
Nina as well, to answer it.
    As I indicated, the ongoing work of the Commission in 
evaluating countries and making recommendations has been going 
on all year long. It included countries with serious problems 
all across the world. The report focused on a few countries in 
particular, but we have been covering the gambit. Vietnam has 
been one of those that we have paid particular attention to.
    We have met with representatives of groups from Vietnam 
talking to us about their problems, the Montagnard Protestant 
pastors just this past week. We have met with representatives 
with the Catholic community. I have met at the Vatican with one 
of the highest ranking Vatican officials, who is one of the 
heroes for religious freedom in Vietnam. We met with Hoa Hao 
community. That is a Buddhist community in Vietnam.
    We made recommendations related to some of this to the 
State Department during the year, so this is an issue we are 
watching closely. This is clearly a country that raises 
significant concerns. They are detailed in the State Department 
report. We have been monitoring that. We are meeting with 
people and making recommendations to the State Department. We 
will continue to do so. We appreciate your own interest in 
this, as well.
    Mr. Campbell. How do you recommend I vote on NTR this year 
for Vietnam?
    Rabbi Saperstein. That is interesting, we did not address 
that issue. I think perhaps we may need to do so as we continue 
our own deliberations. I appreciate you putting that on the 
table for us to consider.
    Mr. Campbell. It would matter, so I hope we can get a 
recommendation.
    Rabbi Saperstein. Do either of you have anything to add on 
that?
    Ms. Shea. No.
    Rabbi Saperstein. Nina.
    Ms. Shea. We have made a determination that although there 
are many factors, and this is a multifaceted conflict going on 
in Sudan, that religion is a major factor, and that it was the 
government's breaching of the Addis Ababa agreement in 1983 
that ignited this war. They breached it by trying to impose 
Sharia law throughout the south.
    Up until that point, under the Addis Ababa agreement, the 
south had political autonomy and they were able to practice 
their religion, various religions in the South.
    So we made a determination that the war, this rebellion, 
started--it was a rebellion after all--against the imposition 
of Sharia, and that to this day, religion plays a major factor 
in this war; that the government manipulates Islam, uses 
Islamic symbols, calls it a Jihad, stirs up Arab tribesmen on 
the basis of religion to try to impose its extremist form.
    We had a hearing, and Bishop Mangenases, a Catholic bishop, 
testified before us. I would like to just give you a little 
quote about what he said about the bombing of the school he 
founded in the Nuba mountains, a Catholic primary school that 
was bombed on February 7th and 8th by the Russian bombers of 
the government.
    He said,

    The Catholic church has set up the only well-established 
school in the area with more than 360 students. Fourteen of 
these students were killed outright in the raid, and the number 
of wounded has been fully determined.
    Truly this is a slaughter of the innocents, an unbridled 
attempt at destroying their children. I have tried time and 
again to tell the world that the national Islamic Front regime 
in Khartoum has been, and is conducting a campaign of genocide 
aimed at exterminating the Christian African and nonArab 
populations of Sudan in order to establish a uniform Arab 
Islamic fundamentalist free state in the heart of Africa.
    This terrible heart-breaking incident is yet another piece 
of evidence, if more were still needed, that the war in Sudan 
is a religious, and I underline that it is religious, an ethnic 
war launched by Khartoum and aimed at the destruction of the 
people.
    We cannot take back the 14 martyred children under the 
trees of Kyuda. There are many Rachels today in the Nuba 
Mountains weeping for their children. What we can do is call 
upon the international community to refuse to stand by while 
the Christian and peoples of the Sudan are exterminated.

    Chairman Gilman. Thank you.
    Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. I will be very quick 
here.
    I read at the beginning of your report, the transmittals to 
the President, to Madeleine Albright, to the Speaker, and to 
Mr. Thurman.
    Have you had a response from anybody?
    Rabbi Saperstein. The State Department came out with a 
public release the day we issued the statement commending the 
report. They took issue with some of the obvious places that 
you would expect they would take issue with, particularly the 
PNTR recommendations that we made.
    There has been some informal communication with the White 
House. I would presume soon after the PNTR vote is over that 
they have been focused on, that there will be more extensive 
discussions, but there have been ongoing communications at 
fairly high levels of the White House related to the report.
    We have not yet had formal communications with the 
leadership in Congress. We have testified before the Senate 
Committee on Foreign Relations, before this Committee, and 
several of the subcommittees, Mr. Smith's subcommittee, the 
House Committee on Ways and Means, related to the report. So 
there has been a great deal of interest and interaction. We 
have not heard back formally from that.
    We expect to have conversations again after the PNTR vote 
that has absorbed much of the time and attention of the 
leadership.
    Mr. Tancredo. When the State Department did talk to you, 
the difference they picked out was with regard to China and 
PNTR. Was there any discussion of your position on Sudan?
    Rabbi Saperstein. I do not have the statement with me. It 
is my recollection that they did make comments related to our 
recommendation about aid to the SPLA and concerns about that. I 
cannot remember how direct, whether it was implied--Ms. Shea?
    Ms. Shea. I think they said they would take it under 
consideration, they were studying it, and they would get back 
to us.
    Rabbi Saperstein. On many of the other things, there were 
complimentary things in their willingness to look carefully. 
Ambassador Seiple, in terms of the recommendations made 
directly to his office and how the report has gone, was 
expressly commendatory of the report and indicated he would 
adopt a number of the recommendations that we have made.
    Mr. Tancredo. You may recall that there was a way in which 
the Secretary of State explained the reluctance on the part of 
the Administration to become any more involved with Sudan on 
the basis that it was not marketable publicly in the United 
States--that the whole issue was not marketable.
    Do you have a sense at all that this will help us help them 
make it marketable?
    Ms. Shea. I hope that the Administration adopts some of our 
policy recommendations across-the-board in our report. It is 
clear that they are not going to adopt the PNTR----
    Mr. Tancredo. There is still time.
    Ms. Shea. I am not optimistic. Therefore, I think the 
pressure is even greater that they take up our recommendations 
on Sudan and come forward with a comprehensive plan, and 
instead of sanctioning the Greater Nile oil project 1 day, 
waiving trade sanctions for a company the next day, and so 
forth and so on, that they need to have a clear, consistent 
message to this genocidal regime in Khartoum.
    Rabbi Saperstein. Perhaps the most important thing to add 
to that is, among all of the recommendations we made, the No. 1 
thing we were concerned about is the President of the United 
States, the Administration, and the Congress using the bully 
pulpit to raise awareness of this issue. A number of our 
recommendations were aimed at that.
    The Administration has been open to us in terms of 
willingness to meet with us directly, the Secretary of State, 
with Bishop Casis. Right after the bombing, they have stepped 
up the number of statements that they have made on it. We are 
urging them to be more assertive, more consistent in raising 
this issue.
    There may be a limit right now. There is no magic pill to 
take here, but the place to begin is to focus national and 
international attention on this horrific situation here, and 
many of our recommendations were aimed at encouraging this.
    Mr. Tancredo. Thank you very much. I appreciate the 
testimony and your work on the Commission. I think it has been 
exemplary. I guarantee you this, I am going to go over now and 
start the process of using the bully pulpit.
    Rabbi Saperstein. Thank you.
    Chairman Gilman. Thank you, Mr. Tancredo. I want to thank 
our panelists for their patience and the extensive review of 
the problem. We look forward to working with you in the days 
ahead. The Committee will stand adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 24, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8021.001
    
    [GRAPHIC] [TIFF OMITTED] T8021.002
    
    [GRAPHIC] [TIFF OMITTED] T8021.003
    
    [GRAPHIC] [TIFF OMITTED] T8021.004
    
    [GRAPHIC] [TIFF OMITTED] T8021.005
    
    [GRAPHIC] [TIFF OMITTED] T8021.006
    
    [GRAPHIC] [TIFF OMITTED] T8021.007
    
    [GRAPHIC] [TIFF OMITTED] T8021.008
    
    [GRAPHIC] [TIFF OMITTED] T8021.009
    
    [GRAPHIC] [TIFF OMITTED] T8021.010
    
    [GRAPHIC] [TIFF OMITTED] T8021.011
    
    [GRAPHIC] [TIFF OMITTED] T8021.012
    
    [GRAPHIC] [TIFF OMITTED] T8021.013
    
    [GRAPHIC] [TIFF OMITTED] T8021.014
    
    [GRAPHIC] [TIFF OMITTED] T8021.015
    
    [GRAPHIC] [TIFF OMITTED] T8021.016
    
    [GRAPHIC] [TIFF OMITTED] T8021.017
    
    [GRAPHIC] [TIFF OMITTED] T8021.018
    
    [GRAPHIC] [TIFF OMITTED] T8021.019
    
    [GRAPHIC] [TIFF OMITTED] T8021.020
    
    [GRAPHIC] [TIFF OMITTED] T8021.021
    
    [GRAPHIC] [TIFF OMITTED] T8021.022
    
    [GRAPHIC] [TIFF OMITTED] T8021.023
    
    [GRAPHIC] [TIFF OMITTED] T8021.024
    
    [GRAPHIC] [TIFF OMITTED] T8021.025
    
    [GRAPHIC] [TIFF OMITTED] T8021.026
    
    [GRAPHIC] [TIFF OMITTED] T8021.027
    
    [GRAPHIC] [TIFF OMITTED] T8021.028
    
    [GRAPHIC] [TIFF OMITTED] T8021.029
    
    [GRAPHIC] [TIFF OMITTED] T8021.030
    
    [GRAPHIC] [TIFF OMITTED] T8021.031
    
    [GRAPHIC] [TIFF OMITTED] T8021.032
    
    [GRAPHIC] [TIFF OMITTED] T8021.033
    
    [GRAPHIC] [TIFF OMITTED] T8021.034
    
    [GRAPHIC] [TIFF OMITTED] T8021.035
    

</pre></body></html>
